Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  CLINICAL TRIAL WEB SITES

         A Promising Tool to
       Foster Informed Consent




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                        MAY 2002
                      OEI-01-97-00198
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                           EXECUTIVE                          SUMMARY


PURPOSE

           To assess the role of clinical trial Web sites in fostering informed consent and of institutional
           review boards in overseeing the information on these Web sites.


BACKGROUND

           In a June 2000 report, Recruiting Human Subjects: Pressures in Industry Sponsored-
           Clinical Research, we examined the strategies sponsors and investigators use to recruit human
           subjects for clinical trials. In this report, we take a closer look at a new recruitment vehicle:
           clinical trial Web sites. These Web sites provide a significant opportunity not only to recruit
           human subjects, but also to foster informed consent by increasing the amount of information that
           is available to an individual interested in a clinical trial. In this report we focus on the latter
           opportunity. Given the central role institutional review boards (IRBs) have in ensuring informed
           consent, we also look at their role in overseeing the information on these Web sites.

           In conducting this inquiry, we reviewed 22 clinical trial Web sites and 110 clinical trial listings
           on those sites. We analyzed both the general clinical trial information and the trial-specific
           information presented on these Web sites. We also interviewed Web site representatives, IRB
           members, and Federal officials.


FINDINGS

Clinical trial Web sites are emerging as an important recruitment strategy.

           Clinical trial Web sites are growing in popularity. Total visitors on the National Cancer
           Institute’s Web site, CancerNet, increased from an average of 500,000 visitors per week in
           May 2000 to an average of 700,000 visitors per week in May 2001. Another site,
           CenterWatch, saw the average number of visitors increase from 38,000 in 1997 to 334,000 in
           2000.1 Furthermore, these Web sites offer benefits as a recruitment vehicle: access to a large
           number of individuals, services that allow for personalization, and the potential to reduce costs
           associated with recruitment.




Clinical Trial Web Sites                                 i                                      OEI-01-97-00198
Clinical trial Web sites show promise as a means of fostering informed consent.

           Most of the Web sites we reviewed provide valuable general and trial-specific
           information about clinical trials.

           In our review of general clinical trial information on 22 Web sites we found that:

           <21 explain the importance of informed consent.
           <16 describe the role of IRBs in protecting human subjects.
           <16 explain the overall purpose of clinical trials.

           In our review of trial-specific information in 110 clinical trial listings we found that:

           <91 provide eligibility criteria.
           <80 provide a clear statement of the trial’s purpose.

But clinical trial Web sites fail to take full advantage of their potential to foster
informed consent.

           Most of the clinical trial listings we reviewed exclude key information. In our review of
           110 clinical trial listings, we found shortcomings in the following areas:

           <Trial benefits and risks. Not one has any information about risks to human subjects, while
            29 describe the benefits.
           <Sponsor name. 77 fail to identify the sponsor for the clinical trial.
           <Phase of trial. 69 do not indicate the phase of the clinical trial.
           <Description of trial. 56 lack a general description of the protocol.

           Some Web sites provide misleading general clinical trial information. For example, one
           Web site inaccurately describes phase one trials by saying the chances of a successful treatment
           are good, when in fact such trials are conducted to test safety. Another suggests that clinical
           trials provide access to new drug treatments, when in fact they involve the use of experimental
           drugs, not proven treatments.

           Most Web sites that collect personal information fail to disclose how they will use the
           information. In our review of 13 online privacy policies from Web sites that collect personal
           information, we found that:

           <11 do not indicate how long the Web site stores such information.
           <9 do not describe their processes to ensure that such information is securely transmitted over
            the Internet.


Clinical Trial Web Sites                                  ii                                      OEI-01-97-00198
           Web sites provide minimal information about their financial relationships. Of the 12
           Web sites that generate revenue, half fail to disclose how they do so.

IRBs face major challenges in reviewing clinical trial Web sites.

           Federal guidance for IRBs fails to make clear when a clinical trial listing requires review and
           fails to address privacy issues surrounding prescreening through the Internet. IRBs have limited
           leverage over general information on Web sites because it is outside their purview. Finally,
           many IRBs are already overburdened by increased workloads and lack the resources to take
           on the additional responsibility of reviewing clinical trial listings.


RECOMMENDATIONS

           We direct three recommendations jointly to FDA and the Office for Human Research
           Protections (OHRP). Both of these entities issue guidance to IRBs and rely on them to ensure
           adherence to federal regulations that afford protections to human subjects.

IRB OVERSIGHT. Provide further guidance to IRBs on clinical trial Web sites.

           Clarify that risk and benefit information in trial listings should be subject to IRB review and
           approval. In addition, any prescreening used for specific trials that collect personal information
           should be reviewed and approved by an IRB. In reviewing prescreening mechanisms specific
           attention should be given to privacy and confidentiality issues.

VOLUNTARY STANDARDS. Facilitate the adoption and use of voluntary
standards for clinical trial Web sites.

           Through workshops and other forums for deliberations, FDA and OHRP should exert
           leadership to foster the development and application of voluntary standards for clinical trial
           Web sites. On the basis of our inquiry, we suggest four standards that focus on maximizing the
           Web site’s potential to foster informed consent. They call for a comprehensive overview of
           clinical trials, key information in clinical trial listings, and prominent disclosure of privacy policies
           and significant financial relationships (see page iv). The standards go beyond the risk-benefit
           and prescreening information for which we call for mandatory IRB review and approval.

INDEPENDENT REVIEW. Encourage clinical trial Web sites to undergo periodic
review by independent bodies.

           Periodic review of clinical trial Web sites will help ensure that information provided by them is
           balanced and not misleading or coercive. These reviews could address general clinical trial
           information provided on the Web sites and examine their privacy policies and procedures
           surrounding personal information. Reviews could be conducted by IRBs and/or accrediting
           bodies.


Clinical Trial Web Sites                                  iii                                      OEI-01-97-00198
                                                             Standards for Clinical Trial Web Sites:
                                                                   A Preliminary Framework
                                               Standards                                               Elements

                                       Provide a comprehensive           A comprehensive overview includes:
                                       overview of clinical trials       < Clear statement that a clinical trial is research not treatment
                                                                         < Description of FDA’s drug approval process
                                       The more subjects know            < Description of the Common Rule and FDA Good Clinical
                                       about the process in general         Practice regulations
                                       the more informed their           < Description of the informed consent process
                                       decision to enroll will be.
                                                                         < Description of the role of IRBs
                                                                         < Explanation of the importance of weighing risks and benefits
                                                                         < Information on how to contact key Federal agencies for further
                                                                            clinical trial information
  General Clinical Trial Information




                                                                         < Sources of clinical trial information
                                                                         < Explanation of the importance of considering alternatives to a
                                                                            clinical trial.

                                       Disclose prominently a            A comprehensive policy contains the following with regards to
                                       comprehensive                     personally identifiable information:
                                       privacy/confidentially policy     < How long is personal information retained
                                                                         < What information is collected
                                       Disclosure gives consumers        < How information will be used
                                       control over their personal       < What entities or individuals have access
                                       information before they share
                                       it. Consumers should be fully     < How consumers can eliminate personally identifiable
                                                                            information
                                       aware of how their personal
                                       information will be used.         < When the policy was last updated

                                       Disclose prominently              Significant financial relationships include:
                                       significant financial             < Revenues collected based on Web site services
                                       relationships                     < Funding the site receives from pharmaceutical companies,
                                                                            health insurers, trial sites, etc.
                                       Informs the subject of            < Agreements for advertising on the site
                                       potential conflicts of interest
                                       the Web site may have.

                                       Provide key information in        Key trial information includes:
                                       clinical trial listings           < Title
                                                                         < Phase
  Trial-Specific Information




                                       Key information about specific    < Purpose
                                       trials helps the subject more     < Description of trial
                                       quickly identify appropriate
                                       trials.                           < Eligibility criteria
                                                                         < Duration of trial
                                                                         < Time commitment for the subject
                                                                         < Balanced description of risks and benefits
                                                                         < Compensation for injury
                                                                         < Name of trial sponsor(s)
                                                                         < Name of clinical investigator(s)
                                                                         < Contact information for research site(s) - contact name, phone
                                                                            number, and location

                                                                                                          SOURCE: Office of Inspector General.



Clinical Trial Web Sites                                                              iv                                        OEI-01-97-00198
COMMENTS ON THE DRAFT REPORT

We received comments on the draft report from the Food and Drug Administration, the Office for
Human Research Protections, and the National Institutes of Health. Each agreed with the thrust of our
report and offered a number of comments. Below we summarize their comments and, in italics, offer
our response to them. In this final report, we made some technical changes and clarifications in
response to the comments. The full text of the comments appears in Appendix E.

Food and Drug Administration

The Food and Drug Administration indicated that it will be addressing our recommendations as it
revises its Information Sheets for IRBs and Clinical Investigators. However, FDA expressed concern
about the potential burdens to the already overburdened IRBs. As a way of easing the burden, it
suggested that Federal guidance might call for IRBs to limit theirs reviews of trial-specific information to
that information not considered basic trial information. We modified our recommendations to focus
IRB review and approval to the risk and benefit information and prescreening questions for trial
listings.

Office for Human Research Protections

The Office for Human Research Protections emphasizes that clinical trial web sites have not only the
potential, but also a requirement to foster informed consent. Even basic trial information, it states, is
subject to IRB review. If further guidance is needed to make this clear, it urges that it be issued.
OHRP’s response focused on Web sites for institutions that received federal funds and are under
the purview of those institutions. Our review included these sites but also others that are not
part of any research institution. We suggest that FDA and OHRP work together to produce a
common set of expectations for all Web sites. The preliminary standards we propose may be
helpful in this regard.

National Institutes of Health

The National Institutes of Health, among a number of technical comments, asked for further clarification
addressing the IRB’s responsibility for Web site trial listings beyond the local sites. In our report, we
added language specifying that a local investigator or a sponsor initiating a trial listing that
includes more than basic trial information is responsible for obtaining IRB approval.




Clinical Trial Web Sites                             v                                      OEI-01-97-00198
                            TABLE                          OF               CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


CLINICAL TRIAL WEB SITES: AN OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS

           Emerging Importance for Recruitment Strategy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

           Promising Means of Fostering Informed Consent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

           Shortfalls of Clinical Trial Web Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

           Challenges Facing IRBs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


RECOMMENDATIONS

           IRB Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

           Voluntary Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

           Independent Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



APPENDICES

           A: Main Players in Clinical Research . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

           B: Best Practices of Clinical Trial Web Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

           C: Standards from Health Internet Organizations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

           D: Summary Data of Web Site Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

           E: Full Text of Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

           F: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44





Clinical Trial Web Sites                                               vi                                                  OEI-01-97-00198
                                   INTRODUCTION


PURPOSE

           To assess the role of clinical trial Web sites in fostering informed consent and of institutional
           review boards in overseeing the information on these Web sites.


BACKGROUND

           Clinical investigators and sponsors of clinical trials, typically pharmaceutical companies, often
           have difficulties finding a sufficient number of human subjects to participate in clinical trials (see
           appendix A for an overview of the clinical trial process). These difficulties slow down the
           process of bringing new drugs to market, increase costs, and delay access to new and
           potentially useful drugs. In a June 2000 report, Recruiting Human Subjects: Pressures in
           Industry Sponsored-Clinical Research (OEI-01-97-00195), we examined the strategies
           sponsors and investigators use to recruit human subjects. In this follow-up report, we look at a
           new recruitment vehicle: clinical trial Web sites (see primer on page 4). Given the central role
           institutional review boards (IRBs) have in ensuring informed consent, we also look at their role
           in overseeing the information on these Web sites.

Web sites as an Opportunity to Recruit Human Subjects

           The Internet offers clinical trial Web sites a unique opportunity for clinical investigators and
           sponsors to target individuals with an interest in clinical trials. These Web sites are portals for
           clinical trial information that can be accessed anytime by any individual with access to the
           Internet. In this report, we begin by offering some background on the growth of these Web
           sites and the factors propelling them as a recruitment vehicle.

Web Sites as an Opportunity to Foster Informed Consent

           No less significant than the above opportunity is the one that these Web sites offer to facilitate
           informed consent among those individuals who decide to become human subjects in a clinical
           trial. These Web sites have an opportunity to raise the awareness and understanding of clinical
           trials by increasing the amount of information available to these individuals and, thereby,
           fostering informed consent. It is this opportunity that serves as the main focus of this report.

           Obtaining informed consent has long served as one of the bedrock elements of protecting
           human subjects. In 1978, the influential Belmont Report, issued by the National Commission
           for the Protection of Human Research Subjects, set forth three essential



Clinical Trial Web Sites                                 1                                       OEI-01-97-00198
           elements to informed consent: (1) information — accurate and balanced information that helps
           individuals make a reasoned decision to participate or not; (2) comprehension — information
           presented in ways that facilitate understanding; and (3) voluntariness — information presented
           under conditions free of coercion and undue influence.2

           Clinical trial Web sites afford an opportunity to foster informed consent that can help meet the
           elements outlined in the Belmont Report. These sites provide access to both general and trial-
           specific information. The Internet allows individuals as much time as they need to thoroughly
           review and comprehend this information. Web sites can foster informed consent by presenting
           clinical trial information that helps individuals make balanced assessments of risks and benefits
           and prepare questions for clinical investigators, research coordinators, and their own
           physicians. These sites are not a substitute for the discussion that takes place between the
           individual and physician, but an opportunity to raise the awareness and increase the amount of
           information that is available prior to signing the informed consent document. This opportunity is
           especially important because the informed consent process is too often one that occurs in a
           hurried fashion under intimidating surroundings and confronts the potential subject with a
           detailed, lengthy document to sign — one that often appears aimed more at the legal liability
           concerns of the institution or sponsor than to the concerns of the potential subject.3 Informed
           consent of this kind inhibits the comprehension or voluntariness envisioned in the Belmont
           Report.

Relevance to Federal Oversight

           Within the Department of Health and Human Services, two components have the primary
           responsibility of helping to ensure the rights and welfare of human subjects participating in
           clinical research. The Food and Drug Administration (FDA) regulates research in the products
           it regulates. The Office for Human Research Protections (OHRP) within the Office of the
           Secretary ensures the rights and welfare of human subjects participating in research funded by
           HHS. Both entities rely heavily on IRBs for ensuring adherence to Federal regulations that
           protect human subjects.4 These boards conduct initial and continuing reviews of research
           protocols, informed consent documents, and recruiting practices. FDA and OHRP issue
           guidance documents to help IRBs, sponsors, and investigators meet the Federal requirements.

Methodology

           Our inquiry analyzed 22 Web sites and 110 clinical trial listings. The exact number of clinical
           trial Web sites is unknown because of the vast and constantly changing nature of the Internet.
           Therefore, we researched relevant literature and interviewed key stakeholders to select a
           sample of 22 Web sites that is largely made up of third-party sites, but also includes Federal
           sites, location-specific sites, and sponsor-specific sites (see appendix D for a complete listing of
           the 22 Web sites).5 For our review of clinical trial listings, we selected five listings from each of
           the 22 Web sites, for a total of 110. The sample of listings represents various drug trials for




Clinical Trial Web Sites                                2                                       OEI-01-97-00198
           life-threatening diseases and chronic illnesses. We did not review other practices of Internet
           recruitment such as Web sites that are specific to one trial and banner advertisements.

           We reviewed two types of information from each Web site in our sample: general clinical trial
           information and trial-specific information. We reviewed each of the 22 Web sites for the types
           of general clinical trial information they provide, such as a description of Federal regulations and
           the process of informed consent We reviewed our sample of 110 clinical trial listings for the
           types of trial-specific information they provide such as title, purpose, and contact information.
           We did not evaluate functionality or accuracy of information of the Web sites. (See appendix
           D for all data elements.)

           We conducted interviews with key representatives from 10 of our sample Web sites to answer
           broader questions and provide greater context. Interviews included discussions about the
           advantages and disadvantages of Internet recruitment, Federal guidance, and the role of IRBs.
           In addition, we interviewed Federal officials at OHRP and FDA, IRB members, privacy and
           patient advocates, and ethicists.

           This report reflects the information that these Web sites provided during the period of April
           2001 through September 2001. Since our review of these Web sites, some have changed in
           appearance and content.

           We conducted this study in accordance with the Quality Standards for Inspections issued by
           the President’s Council on Integrity and Efficiency.




Clinical Trial Web Sites                                3                                      OEI-01-97-00198
                                 A PRIMER ON
                           CLINICAL TRIAL WEB SITES
What kind of information do Web sites provide?
     General Clinical Trial Information. This can cover a wide range including, but not limited to, information on
     the elements of clinical trials and the drug approval process such as the protections afforded to human subjects
     participating in trials, the definitions of key medical and research terms, and the standard treatments, therapies,
     and the state of research for particular diseases.
     Trial-Specific Information. Clinical trial listings on these Web sites provide specific information about trials
     enrolling subjects. The information is likely to include the title, purpose, eligibility criteria, and contact
     information.

What types of Web sites exist?
     Federal Sites. Three such sites are: (1) The AIDS Clinical Trials Information Service (ACTIS) offers a database
     of AIDS clinical trials; (2) CancerNet provides a database of cancer clinical trials, and (3) ClinicalTrials.gov
     presents a listing of all federally and some privately funded clinical research.6 The National Institutes of Health
     maintains these three sites.
     Third-Party Sites. These sites are not operated by funders, sponsors, or by the institutions at which trials are
     being carried out. They tend to be operated by private companies. The information on them is typically
     copyrighted. Most of the trial listings on these sites are copied from Federal sites (in some cases the Web site
     will edit the Federal trial descriptions). Sites also obtain trial information directly from sponsors and clinical
     investigators. In a few instances, sites create their own clinical trial descriptions, drawing on non-copyrighted
     sources. These sites generate revenue in the following ways: (1) fee-per listing (a flat fee to list a single trial); (2)
     fee-per-referral (a fee levied each time an individual contacts the trial location through the site); (3) fee-per-
     enrollment (a fee for each subject that ends up enrolling in a trial ; and (4) fee for data access (a charge to
     outside entities seeking access to the site’s databases that maintain information on individuals who use the
     site); and (5) fee for advertising on the site.

     Location-Specific Sites. A specific healthcare facility or its contractor manages these sites and mainly list
     clinical trials being conducted at their location. Trial information tends to be obtained directly from the clinical
     investigators at those locations.

     Sponsor-Specific Sites. Commercial sponsors of clinical trials or their contractors manage these sites. Trials
     listed on these sites tend to be only those trials supported by the sponsor. Information on the site is provided
     by the sponsor or contractor; the clinical investigators are not necessarily involved with or even aware of this
     process.

     Others. These include sponsor and location-specific sites, as well as patient advocacy sites.

What Kind of Services do the Web Sites Provide?
     Prescreening. There are two types: General Prescreening for Clinical Trial Listings, an online questionnaire
     used to generate a list of clinical trials an individual may be eligible for, and Prescreening for a Specific Trial, an
     online questionnaire used to determine if an individual is eligible for a particular clinical trial. If the individual is
     eligible, then, depending on the site, the individual or the Web site may contact the clinical investigator to
     discuss enrollment.

     Disease Information. Offers information concerning specific diseases.

     Trial Folders. Enable users to save specific trials of interest and access them later through a password.
     E-Mail Updates. Provide notices that alert users to new trials and information available on the site.

     Message Center. Allows users to access, via a password, messages in areas of particular interest.

     Chat Rooms. Allows users to discuss with one another about various health-related topics.


Clinical Trial Web Sites                                             4                                                  OEI-01-97-00198
                                           FINDINGS


Web sites are emerging as an important recruitment strategy.

Clinical trial Web sites are growing in popularity.

           Increasing number and variety of Web sites. Over half of the 22 Web sites we reviewed
           were created in the last 5 years. The Federal government took the lead in using the Internet to
           provide clinical trial information to the public and is still a major player, despite the entrance of
           various privately run Web sites. Entrepreneurs are starting companies focused on recruiting
           human subjects over the Internet. Pharmaceutical companies and contract research
           organizations are listing clinical trials on their own Web sites as well as listing trials on other
           clinical trial Web sites. Research institutions such as academic medical centers are creating
           their own Web sites that list trials currently enrolling subjects at their institution.

           Increasing use of clinical trial Web sites. Total visitors on the National Cancer Institute’s
           Web site, CancerNet, increased steadily during the last year.7 The site averaged about
           500,000 visitors per week in May 2000 and increased to 700,000 visitors per week in May
           2001. Another popular Web site, CenterWatch, saw the average number of visitors increase
           from 38,000 in 1997 to 334,000 in 2000.8 Similarly, the government-sponsored AIDS Clinical
           Trials Information Service, ACTIS, averaged 6,084 visitors per month in 1999. Within 2 years
           this number more than doubled to about 12,580 visitors per month. 9

           Research professionals that use the Internet for recruiting patients are also contributing to the
           increase of visitors to these Web sites. According to a recent survey of sponsors and contract
           research organizations conducted by the Association for Clinical Research Professionals, 15
           percent of the respondents regularly use the Internet to recruit patients and by 2001 over half of
           the respondents expect to use the Internet regularly to recruit patients.10

           Three basic trends drive the growth of the number of visitors to clinical trial Web sites. First,
           consumers are taking an increasingly active role in managing their health care. According to a
           recent survey of human subjects, 54 percent self-referred themselves into a trial. 11 Second,
           physicians are beginning to incorporate the Internet into their profession. A recent poll showed
           that from 1999 to 2001, physician use of the Internet went up from 34 percent to 40 percent.12
           As physicians become more accustomed to using the Internet, they will likely use it to search
           for clinical trials for their patients as well as encourage their patients to do so on their own. And
           finally, the growing accessability and use of the Internet, in general, is fueling the number of
           visitors to clinical trial Web sites.




Clinical Trial Web Sites                                 5                                       OEI-01-97-00198
Clinical Trial Web sites offer several benefits as a recruitment vehicle.
           Representatives from clinical trial web sites estimate that these sites enroll between 10-15
           percent of the subjects in a particular trial. They anticipate that the percentage of enrollees from
           the Internet will increase as the sites become more widely used. Below we identify three
           advantages that these sites offer as a recruitment vehicle.

           Accessibility. In the latter half of 2000, over 100 million adults accessed the Internet.13 An
           estimated 60 million people used the Internet to seek health or medical information.14 The Web

           sites make clinical trial information accessible to anyone on the Internet. The anonymity that

           many of the sites offer may further encourage the use of these Web sites by individuals who

           may not have otherwise done so out of concern for privacy or confidentiality. 


           Clinical trial Web sites have made information particularly accessible to vulnerable populations

           who are often desperate for medical options. Many of these Web sites have taken great strides

           to make clinical trial information accessible to those suffering from a chronic or life-threatening

           illness such as AIDS or cancer, especially where standard medical treatment has failed. 

           “Cancers and other Neoplasms” is the largest disease category on ClinicalTrials.gov offering

           2,103 trials out of the 11,000 trials available on the Web site.15 One Web site we reviewed,

           EmergingMed, is devoted entirely to cancer trial listings.


           Clinical trial Web sites also improve access to clinical trial information for rare diseases. 

           Identifying potential subjects for rare disease trials is difficult for sponsors and investigators

           since the population is small and the diseases are less known. Individuals with rare diseases

           often do not hear about trials, especially if they are far from a large medical center. These Web

           sites can provide people all over the country with access to rare disease information and clinical

           trial locations. “Rare Diseases” is the second largest disease category on ClinicalTrials.gov with

           1,901 trials.16


           Personalization. The Internet allows Web

           sites to customize the information and services
      Table 1. Personalized Services
                                                                 Provided by 22 Clinical Trial Web Sites
           they provide to individuals (table 1). One of

           the most advantageous services is prescreening. 
         Personalized              Number of
           Many of these Web sites contain hundreds and,
              Services                Web Sites
           in some cases, thousands of trial listings. 
         Prescreening                      8
           Prescreening uses personal information that is

           submitted by individuals to determine their
          Personal folders                  6
           eligibility for one or more trials. An effective
     E-mail updates                   12
           prescreening process can quickly bring together

           a potential subject and investigator and help
        Chat rooms                        2
           ensure timely enrollments. Other services such

           as chat rooms and e-mail updates help keep

           individuals abreast of new information as well as offer support.




Clinical Trial Web Sites                                6                                      OEI-01-97-00198
           Cost effectiveness. On average, recruitment accounts for 10-15 percent of the overall
           research study budget.17 Traditional advertising, print or television, can be one of the more
           expensive recruitment strategies and can cost, on average, over $600 dollars per patient
           enrolled.18 The Internet can disseminate information relatively inexpensively and reduce the
           costs associated with recruiting. One case study estimated Internet recruitment costs at $63
           per enrolled patient — less than half the cost of other recruiting strategies used for the study. 19



Clinical trial Web sites show promise as a means of fostering
informed consent.

Most of the 22 Web sites we reviewed provide valuable general clinical trial
information.
           Below we demonstrate how clinical trial Web sites can help foster informed consent by
           providing key general information to potential subjects. In our review of 22 Web sites we
           found that:

                 <	 21 explain the importance of informed consent as a means to help subjects make an
                    informed decision about whether to participate in a clinical trial.

                 < 16 describe the role of IRBs in protecting human subjects.

                 <	 16 explain the overall purpose of clinical trials is to learn about a new drug or diagnostic
                    test, not to treat patients.

                 <	 12 describe clinical trials as part of the FDA’s drug approval process to evaluate the
                    safety and efficacy of drugs.

                 <	 12 explain the importance of weighing the risks and benefits associated with a clinical
                    trial when considering to participate.

           However, these Web sites vary in the extent of information they provide. For example, we
           found one site that describes the role of IRBs in a single sentence, compared with another that
           devotes an entire paragraph to the subject and even elaborates on the importance of IRB
           members avoiding conflicts of interest.




Clinical Trial Web Sites                                 7                                      OEI-01-97-00198
           Below are two examples we selected from Web sites that demonstrate the promise that these
           sites offer to foster informed consent. One explains the role of IRBs (figure A); the other
           clearly states that trials may have risks as well as possible benefits (figure B). (For more
           examples of promising approaches see appendix B.)




                                     Figure A: Explaining the Role of IRBs




                                                                                Source: thehealthexchange.org (6/25/01)




                     Figure B: Explaining Risks Associated with Clinical Trials


                      Are there risks in clinical trials?

                      The process of evaluating new treatments can involve some risk. All drugs used
                      in clinical trials have been extensively tested in laboratory experiments.
                      However, some side effects do not become apparent until the treatments are
                      given to humans. Side effects can vary from patient to patient. It is important to
                      remember that clinical trials can carry unknown dangers as well as possible
                      benefits.


                                                                                      Source: Veritas Medicine (3/29/01)




Clinical Trial Web Sites                                          8                                          OEI-01-97-00198
Most of the 22 Web sites we reviewed provide important trial-specific information.

           In our review of 110 clinical trial listings we found that:

                 <	 91 (83 percent) provide eligibility criteria. This type of information is important
                    because it discourages individuals from inquiring about trials for which they are not
                    eligible, thereby, allowing individuals to focus their time on understanding information in
                    those trial listings that are most relevant to them.

                 <	 80 (73 percent) provide a purpose statement. A purpose statement can indicate the
                    type of experimental drug being tested, the type of subjects needed, and further
                    emphasize that a clinical trial is research, not treatment.

           Similar to general information, the extent of trial-specific information varies from site to site.
           For example, one Web site we reviewed provides several paragraphs of eligibility criteria that
           included sex, disease, age, previous medications and surgical treatments, and stage of disease,
           while another Web site for the same trial only offers sex, age, and disease information.

           We highlight two examples from Web sites that use novel approaches to present clinical trial
           listings in an easy format that fosters comprehension. (For additional examples of promising
           approaches see appendix B.) One provides an interactive listing that links to a glossary of
           terms. Within each listing, selected words are underlined to indicate they are active links to the
           National Cancer Institute’s dictionary of cancer terms (figure C). The other example shows
           how the interactive capability of the Internet can allow individuals to link from the trial listing to
           other sources of information such as relevant journal articles (figure D on following page).


                                Figure C: Defining Clinical Trial Terms




                                                                                   Source: Cancernet (7/16/01)




Clinical Trial Web Sites                                 9                                       OEI-01-97-00198
                 Figure D: Providing Background Information on a Clinical Trial




                                                                            Source: ClinicalTrials.gov (7/16/01)




But clinical trial Web sites are not taking full advantage of their
potential to foster informed consent.

Most of the clinical trial listings we reviewed exclude key information.

           Web sites provide trial-specific information in listings to draw in those people who may be
           potential study subjects. It is important, especially from the outset, that this information be
           accurate and comprehensive. If not, then potential subjects may enter the informed process
           with false impressions, thereby undermining that process.

           In our review of 110 clinical trial listings, we found that:

           <None describe the risks associated with the study protocol, while 29 describe the benefits to
            subjects. It is important that risks and benefits are presented to subjects in a balanced
            fashion. Listings that only provide benefits can mislead individuals to assume that the trial is
            without risks. We found that most of the benefits described were not therapeutic, but instead
            focused on convenience and incentives to the study subject, such as free parking and
            monetary compensation. These benefits can be misleading if not tempered by a statement that
            risks are involved.

           <77 (70 percent) fail to identify the sponsor for the clinical trial. The name of the sponsor tells
            the individual who is accountable for the study.




Clinical Trial Web Sites                                 10                                     OEI-01-97-00198
           <69 (63 percent) do not indicate the phase of the clinical trial. Thus, in these cases, an
            individual would not be able to distinguish a phase one trial aimed strictly at testing the safety
            of an experimental drug from a phase three trial focused on testing efficacy as well as safety.

           <56 (51 percent) lack a general description of the protocol. A general description provides a
            sense of the procedures that a subject will undergo and the time commitment that is necessary
            to participate in the trial.

Some clinical trial Web sites we reviewed provide misleading information that can
undermine informed consent.

           In our prior reports we found traditional advertisements that overstated benefits to recruit
           human subjects.20 Therefore, it is not surprising that we also found this to be a problem on
           several clinical trial Web sites. Below we cite some examples of misleading general information
           that we found on three different Web sites. In each case we explain our basis of concern:

           Example #1

                      Web Site Text: “Why should I participate in a clinical trial?...Often [taking part in a
                      research study] gives you the chance to access a medicine that is not available on the
                      market for prescription.”21

                      Basis for Concern: This statement neglects to mention that the medicine has not yet
                      been shown to be safe and effective, which is why it is not on the market.

           Example #2

                      Web site Text: “Is a clinical trial right for you?...Many people who volunteer for
                      studies do so because it provides them access to new drug treatments before they are
                      available in the marketplace.”22

                      Basis for Concern: Similarly, this statement neglects to mention that the medicine has
                      not yet been shown to be safe and effective and that the main objective of clinical trials
                      is not about access, but about research.

           Example #3

                      Web site Text: “Clinical trial phases...In general, the chances of success in a phase I
                      trial are good...”23

                      Basis for Concern: Phase one trials are not designed to show efficacy; they are
                      designed to show that the drug is not toxic in humans. Little is known about the safety


Clinical Trial Web Sites                                 11                                      OEI-01-97-00198
                      of drugs in phase one trials, because this is when they are usually tested in humans for
                      the first time or are evaluations of a new dosage or new mode of administration.

Most clinical trial Web sites we reviewed that collect personal information fail to
disclose how they will use the information.

           Of the 22 Web sites we reviewed, 13 collect personal information and each of them provide an
           online privacy policy. However, in our review of these 13 online privacy policies we found that:

           <11 do not indicate how long the Web site stores personal information.

           <9 do not address their processes to ensure that personal information is securely submitted
            over the Internet.

           <7 do not specify whether personal information is shared with an investigator or a clinical
            research personnel at the trial location.

           <6 do not provide a linking policy that addresses privacy concerns when users leave their Web
            site and link to a different site. Lack of a linking policy is worrisome because linking from one
            site to another can appear seamless and individuals may be unaware that they have left the
            original site.

           Collecting personal information such as health information is not necessarily inappropriate. In
           fact, many individuals are willing to share such information in return for possible benefits. The
           issue of concern from the perspective of protecting human subjects is whether users are fully
           aware of how their personal information will be used prior to submitting it to the Web site.

Clinical trial Web sites provide minimal information about their financial
relationships.

           Of the 12 Web sites that generate revenue, half fail to disclose how they do so. Knowledge of
           a Web site’s financial relationships can affect how an individual interprets information on that
           Web site. Of those Web sites that do disclose their revenue sources, three indicate that they
           generate revenue from patient enrollment/referral fees and three indicate that they generate
           revenue from trial listing fees. Aside from addressing revenue based on patient enrollment and
           listing fees, only one Web site clearly states it does not accept funds from pharmaceutical
           companies and another site states it does not accept advertising. Three Web sites do accept
           advertisements and provide a corresponding advertisement policy.




Clinical Trial Web Sites                                 12                                     OEI-01-97-00198
IRBs face major challenges in reviewing clinical trial Web sites.

           Institutional review boards (IRBs) are the only entities whose sole function is to ensure human-
           subject protections.24 They play a critical role in safeguarding subjects’ rights and welfare
           during the recruitment process, informed consent process, and the conduct of the trial.

Limited Federal guidance on trial-specific information.

           Both FDA and OHRP have issued guidance documents to sponsors, investigators, and IRBs
           regarding recruitment practices. Current FDA guidance addressing clinical trial listings on the
           Internet is part of a broader commentary about recruitment that is addressed in the 1998 FDA
           Information Sheet, “Recruiting Study Subjects.” OHRP’s guidance is contained in its 1993
           Institutional Review Board Guidebook and endorses the aforementioned FDA Information
           Sheet. Because the two guidance documents are identical, we will refer to them together as
           Federal guidance.

           Unclear language determining when a clinical trial listing requires review. Federal
           guidance calls for IRBs to review and approve all direct advertisements to study subjects.25
           However, the guidance carves out an important exemption for clinical listing services. It states
           that clinical trial listing services that contain basic trial information do not need to be reviewed
           by an IRB. It adds that basic trial information includes: title, purpose, protocol summary, basic
           eligibility criteria, study site location, and how to contact the site. The guidance specifically
           mentions the National Cancer Institute’s cancer trial listing, the Physician’s Data Query (PDQ)
           found on CancerNet, and the government-sponsored AIDS information service, ACTIS, as
           examples of clinical trial listing services that contain basic trial information and do not require
           IRB review.

           However, many of the clinical trial Web sites in our review provide additional trial information in
           their listings that is not explicitly mentioned in the guidance as basic trial information, such as
           risks and benefits and the name of the investigator or sponsor. It is unclear whether this type of
           trial-specific information is considered to be basic trial information. If it is not basic trial
           information, then according to current guidance it requires review by an IRB. Although some
           investigators, sponsors, and Web sites submit clinical trial listings for review regardless of
           whether they contain basic trial information, most do not appear to do so.

           Failure to address privacy issues surrounding prescreening for specific trials.
           Prescreening for a specific trial uses a questionnaire that asks individuals to answer personal
           questions to determine whether they are eligible for particular trials (see figure F on the
           following page for sample questions). The personal information collected through prescreening
           raises concerns about privacy and confidentiality.




Clinical Trial Web Sites                                13                                      OEI-01-97-00198
           Although prescreening through the Internet is new, the concept of prescreening is not. Online
           prescreening questions are similar to those on scripts that are used by telephone receptionists at
           central call centers for determining eligibility for a specific study. Federal guidance has long
           required receptionist scripts to be reviewed by an IRB to ensure that individuals’ confidentiality
           and privacy are protected. However, the guidance does not require online prescreening
           processes, which contain the same type of sensitive questions as receptionists’ scripts, to be
           reviewed by an IRB.


           Figure F: Collecting Sensitive and Private Health Information Through
                            Online Prescreening Questionnaires




                                                                    Source: Emergingmed.com (7/24/01)




Limited leverage over general clinical trial information.

           The general information on a clinical trial Web site is of considerable relevance to the informed
           consent process. It can, as we have suggested, help individuals gain valuable perspectives on
           the pros and cons of clinical trials and on the protections that are supposed to be afforded to
           human subjects. As noted earlier, it can also serve as a means of misleading potential subjects
           — for example, by indicating that trials present an opportunity to gain access to new drugs.

           Notwithstanding the significance of the information presented at this general level, it exists in a
           domain that is beyond the purview of IRBs. Federal regulations do not require the IRBs to
           review this information. The limited attention that IRBs give to Internet recruitment is, therefore,
           limited almost entirely to trial-specific information.



Clinical Trial Web Sites                               14                                      OEI-01-97-00198
IRBs are overburdened.

           Some IRB members that we spoke with require investigators to submit for review clinical trial
           listings that will be posted on Web sites. They also anticipate more Internet-based recruitment
           in the future and expressed concerns about how to address the increasing use of this strategy.
           In a prior report we drew attention to the fact that IRBs are reviewing more materials at a faster
           pace.26 We also found that 25 percent of IRBs do not even ask investigators to explain their
           recruiting practices.27

           Many IRBs are already burdened by increased workloads and lack the resources to devote to
           reviewing traditional recruitment materials. The nature of the Internet allows for vast amounts of
           information to be published and updated relatively inexpensively. Some trial listings on the Web
           can be four pages long and contain numerous links to other Web sites that provide even more
           information. Thus, clinical trial listings contain more information than a typical print
           advertisement and review of them will likely add to IRB workloads.




Clinical Trial Web Sites                              15                                     OEI-01-97-00198
                           RECOMMENDATIONS

           In this inquiry we focused on the potential that clinical trial Web sites have to foster informed
           consent. Below we recommend steps that can be taken to use this potential and help ensure
           that information on these Web sites does not undermine informed consent. We direct our
           recommendations jointly to the Food and Drug Administration (FDA) and to the Office for
           Human Research Protections (OHRP). We urge FDA and OHRP to work together with
           external stakeholders to address these recommendations.


Provide further guidance to IRBs on clinical trial Web sites.

           The recent growth of Internet-based recruitment strategies warrants renewed attention in
           guidance. We recommend that FDA and OHRP develop a new section, within current
           guidance, that specifically address recruitment practices on the Internet. In regard to clinical
           trial Web sites, we recommend to FDA and OHRP the following:

Clarify that risk and benefit information in trial listings is subject to IRB review and
approval.

           Current guidance does not require IRB review if the clinical trial listing is limited to the following
           basic trial information: title, purpose, of the study, protocol summary, basic eligibility criteria,
           study site location(s), and how to contact the study site for further information. 28 This is a
           sound policy that we do not propose to change. However, some Web sites we reviewed
           provide more than the prescribed basic trial information mentioned in current guidance. In
           these instances it is unclear to IRBs whether review of the listing is required. Therefore, we
           recommend FDA and OHRP make it clear that (1) risk and benefit information in a trial
           listing is subject to IRB review and approval, and (2) sponsors and investigators have the
           responsibility to obtain that review. The IRB is the most suitable entity to ensure that risk and
           benefit information is presented in a balanced and fair manner.

Require IRB review of any prescreening used for specific trials.

           Prescreening for specific trials use questionnaires to ask potential subjects personal and
           sensitive health information to determine their eligibility for those trials. Such screening
           questions should be subject to IRB review and approval. In instances where this information is
           personally identifiable and stored, FDA and OHRP should call for IRBs to review this type of
           prescreening to ensure that appropriate steps have been taken to address privacy issues.
           Guidance should be similar to what is already in place for receptionist scripts that are used at
           central call centers.

           On page 18, we suggest voluntary standards that IRBs may want to consider for privacy
           policies of clinical trial Web sites that collect personal information.

Clinical Trial Web Sites                                16                                       OEI-01-97-00198
Facilitate the adoption and use of voluntary standards for clinical
trial Web sites.

           FDA and OHRP should exert leadership to foster the development and application of voluntary
           standards for clinical trial Web sites. Such standards could address various aspects of these
           sites, such as accuracy, comprehensiveness and functionality. On the basis of our inquiry, we
           have developed a preliminary framework offering four standards that are especially pertinent to
           the role of Web sites in fostering informed consent (see page 18). Developing such standards
           can be an important way of conveying the important role that Web sites can play as
           mechanisms of informed consent and of raising the bar of current practice. The standards we
           propose go beyond the risk-benefit and prescreening information for which we call for
           mandatory IRB review.

           We suggest that FDA and OHRP determine the best ways in which they might exert such
           leadership to facilitate the development and encourage the use of voluntary standards.
           Developing such standards would necessitate a broad public dialogue. Our preliminary
           framework is presented with the intent to help focus discussions on how the Web sites can
           serve as more significant vehicles of informed consent.29 One promising approach to facilitate
           discussion would be to promote public workshops involving key stakeholders such as
           representatives of Web sites, the broader research community (government and industry), and
           patient advocacy organizations. FDA and OHRP could propose points to be considered in
           these workshops.


Encourage clinical trial Web sites to undergo periodic review by
independent bodies.

           The conduct of reviews of individual sites by independent parties can be an important step in
           enhancing the credibility of clinical trial Web sites. Such reviews could address the general
           information provided on the sites — an area that currently is excluded from IRB review. They
           could, for example, address privacy policies and procedures to ensure that personal information
           is handled appropriately. These independent reviews could also address trial-specific
           information, perhaps involving an examination of a sample of listings to make sure that they
           provide balanced information about the trials.

           Such independent reviews could be performed by IRBs. On their own initiative, two of the
           Web sites we reviewed have already contracted with IRBs to provide such reviews. The
           reviews could also be performed by an accrediting body. Although not directly geared toward
           human-subject protection issues, several organizations already exist that have developed
           standards for health information Web sites. Four of the Web sites we reviewed are members
           of the Health on the Net Foundation and subscribe to its eight principles (see appendix C for a
           description of these organizations).




Clinical Trial Web Sites                             17                                    OEI-01-97-00198
                                                             Standards for Clinical Trial Web Sites:
                                                                   A Preliminary Framework
                                               Standards                                                  Elements

                                       Provide a comprehensive           A comprehensive overview includes:
                                       overview of clinical trials       < Clear statement that a clinical trial is research not treatment
                                                                         < Description of FDA’s drug approval process
                                       The more subjects know            < Description of the Common Rule and FDA Good Clinical
                                       about the process in general         Practice regulations
                                       the more informed their           < Description of the informed consent process
                                       decision to enroll will be.
                                                                         < Description of the role of IRBs
                                                                         < Explanation of the importance of weighing risks and benefits
                                                                         < Information on how to contact key Federal agencies for further
                                                                            clinical trial information
                                                                         < Sources of clinical trial information
                                                                         < Explanation of the importance of considering alternatives to a
  General Clinical Trial Information




                                                                            clinical trial.

                                       Disclose prominently a            A comprehensive policy contains the following with regards to
                                       comprehensive                     personally identifiable information:
                                       privacy/confidentially policy     < How long is personal information retained
                                                                         < What information is collected
                                       Disclosure gives consumers        < How information will be used
                                       control over their personal
                                                                         < What entities or individuals have access
                                       information before they share
                                       it. Consumers should be fully
                                                                         < How consumers can eliminate personally identifiable
                                       aware of how their personal          information
                                       information will be used.         < When the policy was last updated

                                       Disclose prominently              Significant financial relationships include:
                                       significant financial             < Revenues collected based on Web site services
                                       relationships
                                                                         < Funding the site receives from pharmaceutical companies,
                                                                            health insurers, trial sites, etc.
                                       Informs the subject of            < Agreements for advertising on the site
                                       potential conflicts of interest
                                       the Web site may have.




                                       Provide key information in        Key trial information includes:
                                       clinical trial listings           < Title
                                                                         < Phase
  Trial-Specific Information




                                       Key information about specific    < Purpose
                                       trials helps the subject more     < Description of trial
                                       quickly identify appropriate
                                       trials.                           < Eligibility criteria
                                                                         < Duration of trial
                                                                         < Time commitment for the subject
                                                                         < Balanced description of risks and benefits
                                                                         < Compensation for injury
                                                                         < Name of trial sponsor(s)
                                                                         < Name of clinical investigator(s)
                                                                         < Contact information for research site(s) - contact name, phone
                                                                            number, and location

                                                                                                                 SOURCE: Office of Inspector General.



Clinical Trial Web Sites                                                               18                                            OEI-01-97-00198
               COMMENTS ON THE DRAFT REPORT

           We received comments on our draft report from the Food and Drug Administration, the Office
           for Human Research Protections, and the National Institutes of Health. Below, we summarize
           the major comments and, in italics, offer our response. We made a number of changes in the
           final report, mostly technical in nature. The full text of each set of comments appears in
           Appendix E.

Food and Drug Administration

           FDA commended our report and indicated it will work to include our recommendations as it
           reviews its Information Sheets for IRBs and Clinical Investigators. However, FDA expressed
           concern about the potential burdens to the already overburdened IRBs. As a way of easing the
           burden, it suggested that Federal guidance might call for IRBs to limit theirs reviews of trial-
           specific information to that information not considered basic trial information.

           We modified our recommendations to focus IRB review and approval to the risk and
           benefit information and prescreening questions for trial listings.

Office for Human Research Protections

           The Office for Human Research Protections describes the report as “comprehensive and
           insightful.” But it takes the position that clinical trial Web sites have not only the potential, but
           also the requirement, to foster informed consent and to meet all provisions of the Federal
           Common Rule. Even basic trial information, it states, is subject to IRB review. If further
           guidance is needed to make this clear, it urges it that it be issued.

           OHRP’s response focuses on institutional Web sites that function under the federal
           assurance process overseen by OHRP. Our review included these sites but also many
           others that are not part of an institutional assurance. We suggest that FDA and OHRP
           work together to produce a common set of expectations for all Web sites. The
           preliminary standards we propose may be helpful in this regard.

National Institutes of Health

           The National Institutes of Health indicated that it was pleased with the report and offered a
           number of technical clarifications which we addressed in the report. Substantively, NIH was
           not clear if IRB approval of a clinical trial listing at the study site was sufficient or if a separate
           Web approval is needed.

           We have added a clarification in our text that sponsors and investigators are responsible
           for obtaining IRB approval for any clinical trial Web site listing they initiate that goes
           beyond providing basic clinical trial information.


Clinical Trial Web Sites                                  19                                        OEI-01-97-00198
                                                                                           APPENDIX A


                             The Main Players in Clinical Research

           Clinical trials for new drugs are complex and require the engagement of many different entities.
           In recent years, the number of these entities and their agents has proliferated. Below, we
           describe the roles of and interactions among these players.

Sponsors

           Sponsors are the primary agents responsible for conducting the clinical trial and typically are the
           primary source of funding for the trial. They can be either pharmaceutical companies or Federal
           agencies such as the National Institutes of Health. Sponsors are responsible for conducting on-
           site oversight of their trials. This oversight is carried out by monitors. Recently, in an attempt to
           reduce their research and development costs and to streamline processes, sponsors have started
           outsourcing many aspects of clinical trials to other entities. Sponsors often delegate a variety of
           specialized functions, such as the organization and management of clinical trials, to contract
           research organizations (CROs) which sometimes, in turn, outsource to other specialized entities.
           Patient recruitment firms, which are public relation firms whose sole mission is recruiting human
           subjects, have emerged in recent years in response to sponsors’ desire for speedy recruitment of
           subjects.

Investigators

           Sponsors depend upon clinical investigators to actually conduct clinical trials. Investigators often
           rely on their staff to handle the administrative and sometimes much of the clinical work associated
           with clinical trials. Often, investigators will have a point person, or study coordinator who is a
           practitioner (generally a nurse) with the primary responsibility to facilitate the conduct of clinical
           trials. Coordinators may be involved in recruiting and obtaining consent from subjects, as well as
           maintaining the data for the trial. Investigators conduct trials in a variety of different settings.
           Traditionally, they have conducted clinical trials primarily in university hospitals, or academic
           medical centers. Increasingly, research occurs in physicians’ private practices or in dedicated
           research sites, sites exclusively used for research. Some investigators and/or sites have tried to
           accommodate sponsors’ desire for efficient, streamlined trial conduct by forming site networks,
           sometimes referred to as site management organizations (SMOs).

Human Subjects

           The final, and most critical, players in a clinical trial are the human subjects themselves. Subjects
           may be recruited by an assortment of agents and/or entities: sponsors, contract research
           organizations, clinical investigators, research coordinators, and patient recruitment firms. In
           general, sponsors use healthy subjects to test the safety of a drug in first-in-human trials (phase 1
           trials). They use subjects with the condition they are targeting to test the efficacy of a drug in
           later-stage trials (phase 2 and 3 trials).



Clinical Trial Web Sites                                 20                                        OEI-01-97-00198
                                                                                     APPENDIX B



                           Best Practices of Clinical Trial Web Sites

           Here, we cite examples from Web sites that best demonstrate the potential for informing
           individuals about clinical trials.

Providing General Clinical Trial Information

           Partnering with other health content providers can be an important way to further inform people
           about clinical trials and new medical therapies. Acurian has partnered with HopkinsHealth to
           provide current disease information. HopkinsHealth is managed by Johns Hopkins Medical
           Institutions, which disseminates consumer health information on various disease topics that are
           written by health care professionals.30 Thus, an individual on Acurian is able to read about the
           latest news on treatment approaches, preventive health care, and drugs in development.31

Defining Key Terms

           Some Web sites provide a glossary of terms for technical words an individual may commonly
           come across while researching clinical trials. CenterWatch and thehealthexchange both provide
           a comprehensive glossary of clinical research terms in their overview of clinical trials.32,33 For
           example, the glossary explains the Declaration of Helsinki, the Common Rule, and adverse
           events. Instead of providing the glossary in only one location, Emergingmed’s “medical
           dictionary” is accessible from every one of its Web pages (figure A).34 The site integrates the
           National Cancer Institute’s online dictionary to define multiple cancer terms. This is not only
           convenient to users, but it also fosters a better understanding of diseases and clinical trials.

                                      Figure A: Medical Dictionary




                                                               Source: Emergingmed (7/27/01)




Clinical Trial Web Sites                              21                                     OEI-01-97-00198
                                                                                       APPENDIX B


           CancerNet provides an interactive trial description that links to a glossary. Within each trial
           listing, selected words are underlined that are active links to the National Cancer Institute’s
           dictionary of cancer terms (figure B).


                                Figure B: Dictionary of Disease Terms




Providing Disease Information

           When individuals focus their trial search to one disease, clinical trial Web sites often provide
           disease-specific information. Each disease
           category on EmergingMed not only provides
           clinical trial information, but also standard         Figure C: Disease Information
           disease treatments and therapies in
           development (figure C).35

           Veritas Medicine provides similar disease
           information, but, in addition, prominently
           discloses the names of the physicians who
           write the information and offers a link that
           provides their professional background and
           credentials. Each disease category on Veritas
           Medicine is developed by one of their medical
           directors, who are physician-scientists with an
           expertise in a particular disease category. 36
                                                                      Source: Emergingmed (7/28/01)
           They provide information about disease and



Clinical Trial Web Sites                               22                                      OEI-01-97-00198
                                                                                     APPENDIX B


           standard treatment and investigational
           treatments within their disease category.        Figure D: Source of Information
           This places accountability on the Web
           site and fosters confidence that the
           information provided is accurate and
           reliable (figure D).37

           ClinicalTrials.gov offers specific disease
                                                                     Source: Veritasmedicine (7/28/01)
           information by providing links to
           MEDLINEplus related topics.
           MEDLINEplus is a repository of health
           information from the National Library of Medicine.38 This service provides access to extensive
           medical information about specific diseases and conditions.

Providing Drug Information

           For drugs involved in AIDS clinical trials that are
           listed on the National Institute of Allergy and           Figure E: Drug Information
           Infectious Disease database, actis.org, the site
           provides links to the AIDSDRUGS Database. In
           the trial description, an individual “clicks” on the
           underlined drug name and is automatically linked to
           extensive AIDS drug information (figure E).39 Drug
           descriptions include links to relevant articles on
           PubMed and to current and past trials that have
           used the drug.


                                                                                  Source: ACTIS (7/28/01)



Describing Systems for Protecting Human Subjects

           Educating individuals about the protections of human subjects in clinical trials is an important
           part of the trial process that fosters informed consent. An explanation of human-subject
           protections includes describing the drug approval process, informed consent and the role of
           IRBs. In their overview of clinical trials, CenterWatch summarizes the protection of human
           subjects through IRB approval and the informed consent process (figure F on following page).




Clinical Trial Web Sites                               23                                    OEI-01-97-00198
                                                                                         APPENDIX B




                       Figure F: Description of Protections for Human Subjects

              The patient's rights and safety are protected in two important ways. First, any
              physician awarded a research grant by a pharmaceutical company or the NIH must
              obtain approval to conduct the study from an Institutional Review Board. The review
              board, which is usually composed of physicians and lay people, is charged with
              examining the study's protocol to ensure that the patient's rights are protected, and
              that the study does not present an undue or unnecessary risk to the patient. Second,
              anyone participating in a clinical trial in the United States is required to sign an
              "informed consent" form. This form details the nature of the study, the risks involved,
              and what may happen to a patient in the study. The informed consent tells patients
              that they have a right to leave the study at any time.


                                                                           Source: CenterWatch (4/10/01)




           CancerTrials, an arm of CancerNet, offers a comprehensive description in a section entirely
           devoted to the “Protections for Participants in Clinical Trials”.40 This section gives simple
           explanations and links to safeguards the government has in place to protect human subjects
           such as the informed consent process and larger systems of Federal protection like the
           Common Rule and the Office for Human Research Protections.41

Explaining Risks

           Of the Web sites we reviewed, only the National Cancer Institute’s CancerNet Web site
           provides a general discussion in the trial listing about the possible risks associated with
           participating in a cancer trial. Each trial description contains the following explanation that
           addresses therapeutic misconceptions individuals may have about participating in a cancer trial
           (figure G on following page).




Clinical Trial Web Sites                                24                                       OEI-01-97-00198
                                                                                                APPENDIX B



                                         Figure G: Explanation of Risks


                    Warning
                    The purpose of most clinical trials listed in this database is to test new cancer
                    treatments, or new methods of diagnosing, screening for or preventing cancer.
                    Because all potentially harmful side effects are not known before a trial is
                    conducted, dose and schedule modifications may be required for participants if
                    they develop side effects from the treatment or test. The therapy or test described
                    in this clinical trial is intended for use by clinical oncologists in carefully structured
                    settings, and may not prove to be more effective than standard treatment. A
                    responsible investigator associated with this clinical trial should be consulted before




Providing Additional Assistance

           One-on-one assistance. Individuals
           who need assistance in searching for                       Figure H: Online Assistance
           clinical trials on CancerNet have access
           to live online assistance from an
           informational specialist, who will
           answer questions about how to use and
           navigate the Web site. Assistance is
           available in the afternoons five days a
           week (figure H).42
                                                                                     Source: CancerTrials (6/16/01)

           Other Web sites may offer a toll-free
           number to lend assistance for navigating
           through their site or registering for a trial. Veritas Medicine offers assistance eight hours a day,
           five days a week.43




Clinical Trial Web Sites                                     25                                         OEI-01-97-00198
                                                                                       APPENDIX B


           A feedback mechanism is useful to let sites
           know whether they are providing their consumers
           with the services they want. Feedback also            Figure I: Feedback Mechanism
           allows an individual to tell the site what services
           are lacking and what needs improvement.
           Veritas Medicine provides an online feedback
           form and will also respond to comments when
           an e-mail address is provided (figure I).                      Source: Veritas Medicine (7/28/01)


Safeguarding Personal Information During
Prescreening

           Recruitment Web site privacy policies are particularly important to the consumer when the site
           provides a prescreening service and collects personal health information. Two Web sites we
           reviewed automatically display a window that discloses to the consumer their intent to collect
           personal health information through a questionnaire. At the end of a trial description, for those
           trials that offer the option to prescreen online, Hopelink provides a “Participation
           Questionnaire”. Prior to the questionnaire, Hopelink provides a web page that describes the
           purpose and process of the questionnaire. In order to proceed to the questionnaire, individuals
           must agree to transfer their contact information to the trial investigative site and click “Agree”
           (figure J is a portion of the prescreening agreement).


                                 Figure J: Prescreening Agreement




                                                                              Source: Hopelink (6/5/01)




Clinical Trial Web Sites                               26                                      OEI-01-97-00198
                                                                                       APPENDIX C



                                  Health Internet Organizations

           The organizations below represent the self-regulatory efforts of the Internet health industry to
           provide credible and reliable health information to consumers. Membership is open to all Web
           sites that provide health information.

Health on the Net Foundation

           The Health on the Net Foundation (HON) is an international initiative whose
           mission is to “guide lay persons or non-medical users and medical
           practitioners to useful and reliable online medical and health information”. In
           1996, the Foundation established a code of conduct, the HONcode, that
           consists of eight principles of reliable health information on the Internet.
           Membership is free. A Web site fills out a questionnaire to verify that it
           follows HONcode principles and, if not, the steps it will take to comply.
           The Web site then receives the HTML code for the seal to post on the Web
           site. Below are the eight principles.44

           1.	 Authority. Any medical or health advice provided and hosted on this site will only be
               given by medically trained and qualified professionals unless a clear statement is made that
               a piece of advice offered is from a non-medically qualified individual or organization.

           2.	 Complementarity. The information provided on this site is designed to support, not
               replace, the relationship that exists between a patient/site visitor and his/her existing
               physician.

           3.	 Confidentiality. Confidentiality of data relating to individual patients and visitors to a
               medical/health Web site, including their identity, is respected by this Web site. The Web
               site owners undertake to honor or exceed the legal requirements of medical/health
               information privacy that apply in the country and state where the Web site and mirror sites
               are located.

           4.	 Attribution. Where appropriate, information contained on this site will be supported by
               clear references to source data and, where possible, have specific HTML links to that
               data. The date when a clinical page was last modified will be clearly displayed (e.g. at the
               bottom of the page).

           5.	 Justifiability. Any claims relating to the benefits/performance of a specific treatment,
               commercial product or service will be supported by appropriate, balanced evidence in the
               manner outlined above in Principle 4.


Clinical Trial Web Sites                               27                                     OEI-01-97-00198
                                                                                            APPENDIX C


           6.	 Transparency of authorship. The designers of this Web site will seek to provide
               information in the clearest possible manner and provide contact addresses for visitors that
               seek further information or support. The Webmaster will display his/her E-mail address
               clearly throughout the Web site.

           7.	 Transparency of sponsorship. Support for this Web site will be clearly identified,
               including the identities of commercial and non-commercial organizations that have
               contributed funding, services or material for the site.

           8.	 Honesty in advertising & editorial policy. If advertising is a source of funding it will be
               clearly stated. A brief description of the advertising policy adopted by the Web site
               owners will be displayed on the site. Advertising and other promotional material will be
               presented to viewers in a manner and context that facilitates differentiation between it and
               the original material created by the institution operating the site.

Hi-Ethics

           Hi-Ethics is a consortium of several health Web sites. The goal of the organization is “to earn
           the consumer's trust and confidence in Internet health services”. Web sites pay an annual fee
           for membership. Hi-Ethics is developing a new program with TRUSTe (see next description)
           due out in 2001. Hi-Ethics established 14 ethical standards to ensure Web sites provide
           reliable and current health information and safeguard confidentiality and security of personal
           information. Below is a brief description of each of the 14 standards:45

           1. Privacy Policies- Disclose use of              5. Identifying Advertising and Health Information
           aggregate and personal health                     Content Sponsored by Third Parties- Disclose how
           information.                                      the Web site accepts advertising and obtains health
                                                             information, clearly distinguish advertising from
           2. Enhanced Privacy Protection for                health information, and disclose significant
           Health-Related Personal Information-              relationships between commercial sponsors and
           Disclose use of personal health                   health content.
           information.
                                                             6. Promotional Offer, Rebates, and Free Items or
           3. Safeguarding Consumer Privacy                  Services- Will comply with Federal and state laws
           in Relationships with Third Parties-              regarding these services offered by the Web site
           Disclose third party use and access
           to person health information.                     7. Quality of Health Information Content- The Web
                                                             site will not provide false or misleading health
           4. Disclosure of Ownership and Financial          information or advertising
           Sponsorship- Disclose major financial
           interests in the Web site or its partners.




Clinical Trial Web Sites                                28                                           OEI-01-97-00198
                                                                                                  APPENDIX C


           8. Authorship- Disclose source of health              12. Transparency of Interactions, Candor and

           information and provide a conflict of interest        Trustworthiness- Inform consumers of the risks,

           policy for all       authors. Any information         responsibilities, and reasonable expectations

           created by the Web site will disclose the date        associated with using the Web site. The Web site

           it was created or last updated.                       will

                                                                 make apparent to consumers when they are moving

           9. Disclosure of Source and Validation for            from one site to another that may involve a change in

           Self-Assessment Tools- Disclose the source            the assumed risks, responsibilities, and expectations

           and scientific basis for their use.                   of

                                                                 the site.

           10. Professionalism- Maintain and adhere to
           professional ethical principles.                      13. Disclosure of Limitations- Disclose the

                                                                 limitations

                                                                 of the health information provided on the Web site

           11. Qualifications- Provide credentials and           and emphasize that the services provided are not

           qualifications of those persons supplying             intended to take the place of the health professional-

           health information to the Web site and                patient relationship.

           disclose if the information is verified.

                                                                 14. Mechanism for Consumer Feedback- Make it

                                                                 easy

                                                                 for consumers to provide feedback or complaints. 




TRUSTe

           TRUSTe is an online privacy seal program that assures
           consumers that Web site members adhere to their privacy
           principles. All Web sites that display the seal must disclose their
           personal information collection and privacy practices. Disclosure
           gives Internet users assurance of privacy and choice over how
           their personal information is collected, used, and shared by Web
           sites.46

Utilization Review Accreditation Commission (URAC)

           URAC, is an organization that has created a health Web site accreditation program. In
           collaboration with Hi-Ethics, URAC’s accreditation program incorporates the 14 Hi-Ethics
           standards. Accredited members display the URAC seal on their site. Accreditation includes a
           fee, an initial audit, and random inspections.47 The final standards were approved by URAC on
           July 27, 2001.




Clinical Trial Web Sites                                    29                                             OEI-01-97-00198
                                                                                            APPENDIX C


Internet Healthcare Coalition

           The Internet Healthcare Coalition aims to promote ethical principles within the Internet health
           industry. The coalition is comprised of representatives from the industry, government,
           medicine, law, and patient and consumer groups. In May 2000, the coalition released the final
           draft of their code of ethics meant to be used by Web sites providing health information. The
           code addresses eight principles:48

           1. Disclose information that if                 4. Respect users’ right to determine whether or how
           known by consumers would likely                 their personal data may be collected, used, or shared.
           affect consumers’ understanding or
           use of the site or purchase or use of           5. Respect the obligation to protect users’ privacy.
           a product or service.

                                                           6. Respect fundamental ethical obligations to
           2. Be truthful and not deceptive.               patients and clients. Also, inform and educate
                                                           patients and clients about the limitations of online
           3. Provide health information that              health care.
           is accurate, easy to understand,
           and up to date. Also, provide the               7. Ensure that organizations and Web sites with
           information users need to make                  which they affiliate are trustworthy.
           their own judgments about the
           health information, products, or
           services provided by the site.                  8. Provide meaningful opportunity for users to give
                                                           feedback to the site. Also, Web sites will monitor
                                                           their compliance with the eHealth Code of Ethics.




Clinical Trial Web Sites                             30                                              OEI-01-97-00198
                                                                                                   APPENDIX D


                                 Summary Data of Web Site Review



                       The table below presents all the 22 Web sites contained in our review.


                                 Table 1: The 22 Web Sites Reviewed


                       Federal Web     <  actis.org
                       Sites           <  cancernet.nci.nih.gov
                                       <  clinicaltrials.gov
                       Third-Party     <    acurian.com
                       Web Sites       <    americasdoctor.com
                                       <    centerwatch.com
                                       <    clinicaltrials.com
                                       <    drugmonitor.com*
                                       <    drugstudycentral.com
                                       <    emergingmed.com
                                       <    trialpages.com
                                       <    veritasmedicine.com
                                       <    thehealthexhange.org
                                       <    hopelink.com
                                       <    mycure.com

                       Location-       <    clinicaltrials.iupi.edu
                       Specific Web    <    crnet.mgh.harvard.edu
                       Sites           <    mayo.edu/research/clinical_trials.html
                                       <    med.umich.edu/gcrc

                       Sponsor-        <  amgentrials.com
                       Specific Web    <  icsltd.net/clinicalstudies
                       Sites           <  glaxowellcome.com/clinicaltrials_external/c
                                            linicaltrials.html

                                                     *drugMonitor.com is no longer in operation.
                                                                    Source: OIG Data Analysis




Clinical Trial Web Sites                                         31                                   OEI-01-97-00198
                                                                                            APPENDIX D




                  The table below represents elements used to score each of the 22 Web sites.


                             Table 2: Review of 22 Clinical trial Web sites
                                     General Element                                       Yes     No NA
       Offers a membership service                                                           13       9      0

       Membership required in order to search for trials                                       1     11     10

       Membership required in order to obtain contact information                              6      6     10

       Describes FDA's drug approval process                                                 12      10      0

       Describes the Common Rule                                                               2     20      0

       Describes the role of IRBs                                                            16       6      0

       Describes the informed consent process                                                21       1      0

       Discusses the importance of weighing the risks and benefits                           12      10      0

       Provides links to Federal Web sites for more information                              14       8      0

       Provides a clear statement that clinical trials are research, not treatment           16       6      0

       Discloses payments it receives                                                          6      6     10

       Discloses who is responsible for content                                                3     19      0

       Accepts advertisements                                                                  3     19      0

       Discloses its policy for advertisements                                                 3     19      0

       Member of e-ethics organization                                                         4     18      0

       Provides an online privacy policy                                                     17       5      0

       Collects personally identifiable information                                          13       9      0

       Discloses how long personally identifiable information is retained                      2     11      9

       Discloses that personally identifiable information can be deleted or edited             8      5      9

       Discloses the processes it has in place to secure provided info in transit              4      9      9

       Discloses it policy to notify users of changes in its privacy policy                    5      8      9

                                                                                     Source: OIG Data Analysis




Clinical Trial Web Sites                                    32                                     OEI-01-97-00198
                                                                                       APPENDIX D




           The table below represents elements used to score each of the five specific clinical trials on
           each of the 22 Web sites, for a total of 110 clinical trials.


               Table 3: Review of 110 Clinical Trials on 22 Clinical trial Web sites
                           Trial Specific Elements                          Yes          No          NA
          Provides a title for the trial                                      58           52           0

          Indicates the phase of the trial                                    38           69           3

          Indicates the purpose of the trial                                  80           30           0

          Provides eligibility criteria                                       91           19           0

          Provides a general description of the protocol                      54           56           0

          Indicates the time commitment required                              48           62           0

          Describes of risks associated with trial                             0         110            0

          Describes of benefits associated with trial                         29           81           0

          Provides sponsor’s name                                             23           77          10

          Provides investigator’s name                                        47           63           0

          Provides contact information at the trial site                      84            6          20

          Provides disease treatment information                              11           99           0

                                                                             Source: OIG Data Analysis




Clinical Trial Web Sites                                   33                                   OEI-01-97-00198
                                APPENDIX E




Clinical Trial Web Sites   34      OEI-01-97-00198
                                APPENDIX E




Clinical Trial Web Sites   35      OEI-01-97-00198
                                APPENDIX E




Clinical Trial Web Sites   36      OEI-01-97-00198
                                APPENDIX E




Clinical Trial Web Sites   37      OEI-01-97-00198
                                APPENDIX E




Clinical Trial Web Sites   38      OEI-01-97-00198
                                APPENDIX E




Clinical Trial Web Sites   39      OEI-01-97-00198
                                                                                     APPENDIX F


                                               Endnotes


1. Diana L. Anderson, A Guide to Patient Recruitment (Massachusetts: CenterWatch, 2001), 25.

2. The Belmont Report: Ethical Principles and Guidelines for the Protection of Human Subjects
of Research. (Washington, D.C.: U.S. Government Printing Office, 1978) DHEW Publication No.
(OS) 78-0012. Reprinted in Federal Register 44 (April 18, 1979):23192.

3. We mention these concerns in two prior reports: (1) U.S. Department of Health and Human
Services, Office of Inspector General, Institutional Review Boards: A Time for Reform, OEI-01-97-
00193, June 1998 and (2) U.S. Department of Health and Human Services, Office of Inspector
General, Recruiting Human Subjects: Pressures in Industry-Sponsored Clinical Research (OEI-
01-97-00195), June 2000.

4. 21 CFR § 50 & 56 and 45 CFR § 46.

5. We recognize that some Web sites view themselves as educational resources rather than recruitment
vehicles. We believe this reflects a limited view of recruitment. Any information that is provided to
subjects with the intent of informing them about specific clinical trials that are actively enrolling is
recruitment. Recruitment is not contingent on whether or not the entity providing the information
financially benefits from subjects that actually enroll.

6. ClinicalTrials.gov was developed as a result of the FDA Modernization Act on 1997. Section 113
requires Department of Health and Human Services, through NIH, to establish a registry of clinical trials
for both federally and privately funded trials of experimental treatments for serious or life-threatening
diseases or conditions. About ClinicalTrials.gov; [ http://www,clinicaltrails.gov, accessed April 19, 2001].
Available to industry are guidance documents entitled “Information Program on Clinical Trials for
Serious or Life-Threatening Diseases or Conditions”, which provide information to industry on the
submission of protocol information to the clinical trials databank. 67 Fed. Reg. (No.52), 18 March
2002.

7. “Total visitors” includes the number of unique visitors and repeat visitors.

8. Diana L. Anderson, A Guide to Patient Recruitment (Massachusetts: CenterWatch, 2001), 25.

9. A “user session” is the period from which a individual enters and browses a Web site to the time the
individual leaves the site.




Clinical Trial Web Sites                            40                                      OEI-01-97-00198
                                                                                              APPENDIX F


10. Diana L. Anderson, A Guide to Patient Recruitment (Massachusetts: CenterWatch, 2001), 177.

11. Ken Getz, “Patient Experience in Industry-Sponsored Clinical Trials,” presented at the Institute of
Medicine’s Clinical Research Roundtable, September 2000, Washington, DC.
[http://www4.nationalacademies.org/IOM/iomhome.nsf/18ace18eb695f74c85256691007102f5/583d8f1384e9e858852569
bc00511d59?OpenDocument, downloaded on June 20, 2001].

12. “New Data Show Internet Website and Email Usage by Physicians All Increasing,” Harris
Interactive. Volume 1 (February 26, 2001) Issue 8.

13. “More online, doing more,” The Pew Internet Project: Internet Tracking Report, February 18,
2001; [http://www.pewtrusts.com/pdf/vf_pew_internet_population_report.pdf, accessed on July 17, 2001].

14. Ibid.

15.   http://www.clinicaltrials.gov/ct/gui/c/w2b/screen/BrowseAny?recruiting=true&path=%2Fbrowse%2
Fby-condition%2Fhier&JServSessionIdzone_ct=zwrpyg7n71,     accessed on July 30, 2001.

16. Ibid.

17. Harper, B. and Moench, L. “Emerging Patient Recruitment Performance and Cost Metrics”
Parexels’s Pharmaceutical R& D Statistical Sourcebook, 2000, p. 104.

18. “A Look at Advertising Expenses Per Patient Recruited,” Parexels’s Pharmaceutical R& D
Statistical Sourcebook, 2000, p. 103.

19. Diana L. Anderson, A Guide to Patient Recruitment (Massachusetts: CenterWatch, 2001), 178.

20. U.S. Department of Health and Human Services, Office of Inspector General, Recruiting Human
Subjects: Pressures in Industry-Sponsored Research, OEI-01-97-00195, June 2000.

21. http://www.clinicaltrials.com, accessed on June 11, 2001.

22. http://www.drugstudycentral.com, accessed on June 22, 2001.

23. http://www.emergingmed.com, accessed on April 4, 2001.

24. Sponsors and investigators also play a critical role in ensuring human-subject protections but they
are also responsible for conducting the research.




Clinical Trial Web Sites                                   41                                        OEI-01-97-00198
                                                                                     APPENDIX F


25. FDA’s Information Sheets. Guidance for Institutional Review Boards and Clinical
Investigators 1998 Update. http://www.fda.gov/oc/ohrt/irbs/toc4.html, accessed on July 17, 2001.

26. In a prior report we found that IRBs are overburdened because workloads have increased while
staffing levels and budgets have remained the same. U.S. Department of Health and Human Services,
Office of Inspector General, Institutional Review Boards: A Time for Reform, OEI-01-97-00193,
June 1998.

27. U.S. Department of Health and Human Services, Office of Inspector General, Recruiting Human
Subjects: Pressures in Industry-Sponsored Clinical Research (OEI-01-97-00195), June 2000.

28. FDA’s Information Sheets. Recruiting Study Subjects. September 1998, p.29.

29. In June 2001, FDA issued draft guidance for industry on trial-specific information that should be
included in clinical trial listings submitted to ClinicalTrials.gov. FDA and OHRP can use this draft
guidance to facilitate discussions for voluntary standards addressing the trial-specific information that
should be provided on clinical trial Web sites.

30. http://www.acurian.com/diseases/bridge_features.jsp, accessed on July 17, 2001.

31. A Web site “homepage” is defined as the Web page that is displayed and viewed when a user
initially visits a particular site.

32. Accessed on July 27, 2001 at [http://centerwatch.com/patient/glossary.html]

33. http://thehealthexchange.org, accessed on July 27, 2001.

34. http://emergingmed.com, accessed on July 27, 2001.

35. http://www.emerginmed.com, accessed on July 28, 2001.

36. http://www.veritasmedicine.com/fm/about_us/about.cfm?mode=5/, accessed on July 28, 2001.

37. http://www.veritasmedicine.com/d_index.cfm, accessed on July 28, 2001.

38. http://www.nlm.nih.gov/medlineplus/, accessed on July 28, 2001.


39. http://www.actis.org. Evaluation of an Anti-HIV Drug Combination That Includes a Coated Form
of Didanosine (ddI EC) Compared to a Typical Anti-HIV Drug Regimen, accessed on July 28, 2001.



Clinical Trial Web Sites                               42                                   OEI-01-97-00198
                                                                                  APPENDIX F


40. http://cancertrials.nci.nih.gov/understanding/index.html, accessed on June 7, 2001.


41. http://cancertrials.nci.nih.gov/understanding/indepth/protections/consent/pt01bgd.htm, accessed on

June 19, 2001.


42. http://cancertrials.nci.nih.gov/understanding/index.html, accessed on June 16, 2001.


43. http://veritasmedicine.com, accessed on July 28, 2001.


44. More information on the Health on the Net Foundation is available at www.hon.ch/.


45. More information on Hi-Ethics is available at www.hiethics.com.


46. More information about TRUSTe is available at www.truste.org.


47. More information about URAC is available at www.urac.org.


48. More information about the Internet Healthcare Coalition is available at www.ihealthcoalition.org. 





Clinical Trial Web Sites                           43                                       OEI-01-97-00198
                           ACKNOWLEDGMENTS

This report was prepared under the direction of Mark. R. Yessian, Ph.D., Regional Inspector General
for Evaluation and Inspections in Boston and Joyce M. Greenleaf, M.B.A., Assistant Regional
Inspector General. Other principal Office of Evaluation and Inspections staff who contributed include:

China D. Eng, Program Analyst                          Genevieve Nowolinski, Program Specialist

Steven P. Keenan, Program Analyst

Aimee K. Golbitz, Program Analyst





Clinical Trial Web Sites                       44                                OEI-01-97-00198
